 

IN THE
Supreme Court of the United States

%
JACKSON RIDGE REHABILITATION AND CARE, ET AL., PETITIONERS,
Vv.
RHONDA MEADOWS, RESPONDENT.
+

ON PETITION FOR A WRIT OF CERTIORARI
TO THE OHIO SUPREME COURT

+
PETITION FOR A WRIT OF CERTIORARI
+

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document
contains 5,244 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 17, 2020

haces Punda fo
GRACIE BRENDA CO

Counsel of Record
THE COEY LAW FIRM, LLC
29225 Chagrin Boulevard
Suite 230
Pepper Pike, Ohio 44122
(330) 327-7349
brenda@coeylaw.com
